ES, IG-98-030, Single-Source Suppliers for Critical Items
SINGLE-SOURCE SUPPLIERS FOR CRITICAL ITEMS
IG-98-030
Executive Summary
Introduction
Most National Aeronautics and Space Administration (NASA) Space Shuttle and
Space Station subsystems and components are produced by only one supplier.
Single-source suppliers could present an immediate threat to Agency program
operations if production stopped due to an unplanned event.  In 1991, the
Office of Space Flight issued "Policy Direction on Single-Source Suppliers
of Critical Items," requiring analyses of single-source-supply situations to
ensure uninterrupted availability of industrial materials.(1)
(See Endnotes in Appendix A.) This policy distinguishes between production
and logistics support suppliers and requires less rigorous analyses of the
latter category.  In 1996, the NASA Administrator and the Johnson Space
Center (JSC) Director expressed concern that the listings of single-source
suppliers may not be up-to-date and directed NASA program offices to develop
current lists of single-source suppliers.  The JSC Director asked the Office
of Inspector General (OIG) to review this critical area.  Related OIG reports
are shown in Appendix C.
Objective
The overall audit objective was to evaluate actions taken by NASA to
identify Space Shuttle and International Space Station reliance on
single-source suppliers for critical items.  Appendix B describes our
specific objectives, scope, and methodology.  The International Space
Station Program Office took prompt corrective actions during our audit to
include requiring the contractor, Boeing Company, to provide critical,
single-source supplier listings where required.  Therefore, we focused our
audit on the Space Shuttle Program.
Results of Audit
The Space Shuttle Project Managers have not adequately developed analyses of
critical, single-source suppliers of industrial materials.  Specifically,
analyses of production suppliers were frequently performed to meet the less
rigorous analysis requirements for logistics support suppliers.
Additionally, logistics support analyses were not adequately supported.  As
a result, risks may not be fully identified; alternatives to critical,
single-source suppliers may not be available when needed; and corrective
actions may not be taken to minimize risks to the mission.
Recommendations
We recommended that the Space Shuttle Program Manager revise the analysis
and reporting requirements for critical, single-source suppliers and include
the revised requirements in appropriate Shuttle Program contracts.  We also
recommended that the NASA Chief Engineer revise NASA policy to require
rigorous analyses of all critical, single-source suppliers for all NASA
programs and projects.
Management's Response
Management generally concurred with the intent of the recommendations and
proposed alternative actions that are responsive to the recommendations.
Management stated that it will consider revising NASA policy to include
requirements for rigorous enslyses.
Evaluation of Management's Response
Management's planned actions are responsive except with regard to revising
NASA policy to require more rigorous analyses.  We request that management
reconsider its position on that matter and provide additional comments.